           AUDIT REPORT
                12-24




Independent Audit of Harris Corporation
       FDsys Master Integrator

         September 21, 2012
Date                                                           REDACTED
September 21, 2012
To
Director, Acquisition Services
From
Inspector General
Subject
Independent Audit of Harris Corporation – FDsys Master Integrator
Report Number 12-24

The Office of Inspector General contracted with the Defense Contract Audit
Agency (DCAA) to determine whether the direct materials, direct labor, travel and
other direct costs (ODC) of approximately $15 million charged by Harris
Corporation, the FDsys Master Integrator, were allocable and allowable.

It was not practical to identify during the audit those elements of the data which
are proprietary to Harris Corporation. Therefore we restricted the report. In the
event of an external request for the report, a determination of proprietary
information will be made.

EXECUTIVE SUMMARY

DCAA determined Harris Corporation’s claimed direct costs were allocable and
allowable as adjusted by their audit. DCAA questioned $1,178,814 of claimed
costs. Of the questioned amount, DCAA questioned $726,458 of direct material
costs related to payments exceeding contract funding limits. They questioned
$240,000 of overtime costs not approved as required by the contract.
Additionally, they questioned $212,456 of ODCs related to field premiums and
COLA because field premiums are unreasonable and COLA duplicate other
reimbursements for locality adjustments in the Washington, DC area. Harris
Corporation disagreed with the audit findings.

We recommend the Director, Acquisition Services recover questioned costs of
$1,178,814.




                                         1
SUBJECT OF AUDIT

DCAA examined the Harris Corporation, Harris Government Communications
Systems Division (HGCSD), Voucher No. 0047R2, with total cumulative costs of
$21,798,974 under Contract No. 3000141-0. DCAA did not examine the indirect
costs, including overhead, general and administrative (G&A) expenses, and cost
of money because the annual incurred cost audits of indirect rates for contractor
fiscal years (CFYs) 2007 through 2009 have not been completed. By submitting
the voucher, the contractor asserts that it has complied with the criteria outlined
in the pertinent contract provisions.

HGSCS’s voucher, financial records and related supporting data are the
responsibility of HSCSD. DCAA’s responsibility is to express an opinion on the
allocability and allowability of the direct costs based on our examination.

SCOPE OF AUDIT

Although DCAA was requested to perform an examination of the total incurred
costs on HGCSD’s Voucher No. 0047R2 under Contract No. 3000141-0, this
report reflects only the results of direct materials, direct labor, travel and ODCs.
DCAA conducted the examination in accordance with generally accepted
government auditing standards (GAGAS), except DCAA does not currently have
an external opinion on its quality control system as required by GAGAS 3.55.
The most recent external quality control review opinion expired on August 26,
2009. GAGAS requires that DCAA plan and perform the examination to obtain
reasonable assurance that the data and records examined are free of material
misstatement. An examination includes:

•   Obtaining an understanding of the contractor’s internal controls, assessing
    control risk, and determining the extent of audit testing needed based on the
    control risk assessment;
•   Examining, on a test basis, evidence supporting the amounts and disclosures
    in the data and records evaluated;
•   Assessing the accounting principles used and significant estimates made by
    the contractor;
•   Evaluating the overall data and records presentation; and
•   Determining the need for technical specialist assistance.

DCAA evaluated the direct materials, direct labor, travel and ODCs using the
applicable requirements contained in the:

•   Contract Provision;
•   Material Management Acquisition Regulation;
•   Joint Travel Regulations.



                                          2
For CFYs 2007 through 2009, DCAA considers HGCSD’s accounting system to
be adequate for accumulating and reporting costs on government contracts.
They consider the HGCSD’s billing system to be inadequate in part. The scope
of the examination reflects an assessment of control risk and includes tests of
compliance with applicable laws and regulations that they believe provide a
reasonable basis for their opinion.

We appreciate the courtesies extended to DCAA and to our audit staff. If you
have any questions or comments about this report, please do not hesitate to
contact me at (202) 512-0039.




MICHAEL A. RAPONI
Inspector General

cc:
Acting Public Printer
Assistant Public Printer, Operations
General Council




                                       3
